OFFICE OF INSPECTOR GENERAL


Audit of the African Development
Foundation’s Financial Statements
for Fiscal Years 2008 and 2007
AUDIT REPORT NO. 0-ADF-09-002-C
November 17, 2008




WASHINGTON, DC
Office of Inspector General

November 17, 2008

MEMORANDUM

TO:                 ADF President and CEO, Lloyd O. Pierson

FROM:                AIG/A, Joseph Farinella /s/

SUBJECT:            Audit of the African Development Foundation's Financial Statements for Fiscal
                    Years 2008 and 2007 (Audit Report No. 0-ADF-09-002-C)

With this memorandum, the Office of Inspector General is transmitting the audit report prepared
by the certified public accounting firm of Leonard G. Birnbaum and Company, LLP (Independent
Auditor) on the Financial Statements of the African Development Foundation (ADF) as of
September 30, 2008 and 2007. We contracted with this Independent Auditor to audit the
financial statements.

The Independent Auditor expressed an unqualified opinion that ADF’s financial statements,
including notes thereto, presented fairly in all material respects its financial positions, the net
cost of operations, the changes in net position, and use of budgetary resources for the years
ended September 30, 2008 and 2007, in conformity with U.S. generally accepted accounting
principles. The report included a significant deficiency related to ADF’s management of grants
as discussed on page 14 of the report. ADF is required to address this significant deficiency in
the Chief Financial Officer’s (CFO) Letter contained in the report, pursuant to the requirements
of OMB Circular A-136 and to provide timeframes for correcting the inadequacies, but ADF did
not. Therefore, we are making the following recommendation:

We recommend that ADF develop a corrective action plan to remediate the significant
deficiency and to transmit a revised CFO letter to OMB, GAO and the U.S. Treasury that
documents the timeframes for correcting the inadequacies, in accordance with Section ll.1.3,
CFO Letter of OMB Circular A-136, Financial Reporting Requirements.

The report contained no material weaknesses in the internal controls over financial reporting
and no instances of material noncompliance with selected provisions of applicable laws and
regulations involving ADF’s financial management system. In addition, there were no instances
in which ADF’s financial management systems did not substantially comply with the
requirements of the Federal Financial Management Improvement Act of 1996 (FFMIA) Section
803(a).




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
http://www.usaid.gov
We reviewed the audit report and found it to be in accordance with auditing standards generally
accepted in the United States; the Government Auditing Standards issued by the Comptroller
General of the United States; and the Office of Management and Budget Bulletin (OMB) 07-04,
Audit Requirements for Federal Financial Statements.

In connection with our contract, we reviewed the Independent Auditor’s related audit
documentation. Our review, as differentiated from an audit in accordance with the auditing
standards discussed above, was not intended to enable us to express, and we do not express,
an opinion on ADF’s financial statements. We also do not express opinions on the
effectiveness of ADF’s internal control, ADF’s substantial compliance with FFMIA Section
803(a), or ADF’s compliance with other laws and regulations. The Independent Auditor was
responsible for the attached auditor's report dated November 7, 2008 and the opinions
expressed in it. However, our review disclosed no instances where the Independent Auditor did
not comply, in all material respects, with the auditing standards discussed above.

The Office of Inspector General appreciates the cooperation and courtesies extended to our
staff and to the staff of Leonard G. Birnbaum and Company, LLP during the audit. If you have
questions concerning this report, please contact Rohit Chowbay at (202) 712-1317.
CONTENTS

Message from the President .......................................................................................... 1

Management’s Discussion and Analysis...................................................................... 2

Message from the CFO................................................................................................. 12

Independent Auditor’s Reports ................................................................................... 13

Financial Statements

    Balance Sheets ......................................................................................................... 18

    Statements of Net Cost ............................................................................................. 19

    Statements of Changes in Net Position .................................................................... 20

    Statements of Budgetary Resources ........................................................................ 21

    Notes to the Financial Statements ............................................................................ 22
   AFRICAN DEVELOPMENT FOUNDATION

PERFORMANCE AND ACCOUNTABILITY REPORT

            FISCAL YEAR 2008




    Leonard G. Birnbaum and Company, LLP
             6285 Franconia Road
            Alexandria, VA 22310
                (703) 922-7622
November 7, 2008

                            AFRICAN DEVELOPMENT FOUNDATION
                               MESSAGE FROM THE PRESIDENT

I am pleased to submit the FY 2008 Performance and Accountability Report for the African Development
Foundation (ADF).

ADF has a unique development assistance mission in the Federal government. The Foundation works
directly with marginalized and under-served poor populations across Africa, with a focus on long-term
economic development. Local economic development is the key to poverty alleviation; therefore a
majority of ADF funding goes toward community-based groups. A major component of ADF’s approach
is directed toward helping to develop and grow small and medium-sized enterprises in Africa that produce
both economic gains and quality of life improvements. These gains are measured in terms of more jobs,
improved incomes, better work conditions, and greater access to educational and health services.

In FY 2008, ADF expanded its special mission to work directly with Africa’s poorest and most
marginalized communities. Programming was initiated in Mauritania, the Tuareg area of Niger and Mali,
and post-conflict Burundi. ADF also signed country protocols in Burkina Faso and Malawi. ADF now
has program agreements in 20 countries.

ADF’s operating model is one of low overhead to maximize the amount of appropriated dollars that
provide direct economic development assistance to the most underprivileged populations in Africa. In FY
2008, the Foundation continued to focus attention on lowering costs, speeding up delivery of services,
and improving our strategic partnership initiative. Overhead expenses were reduced by more than 20 %
below the projected levels on October 1, 2007 while program funding increased by 32% over FY 2007
levels. ADF has pledged to be a Federal agency model of openness and transparency and has taken
significant actions to make this happen, including launching a new public information directory on our
web site. A new Board of Directors was installed in October 2008, and has begun its oversight role.

The financial statements and the performance results data contained herein are complete, reliable, and
prepared in accordance with the Office of Management and Budget requirements and in conformity with
generally accepted accounting principles. ADF has appropriate management controls in place to ensure
that all internal controls are operating in accordance with applicable policies and procedures and are
effective in meeting the requirements imposed by the Federal Managers’ Financial Integrity Act (FMFIA)
and the Federal Financial Management Improvement Act (FFMIA).

Signed:

/s/
Lloyd O. Pierson
President and CEO


                                                   1
                           AFRICAN DEVELOPMENT FOUNDATION
                         MANAGEMENT'S DISCUSSION AND ANALYSIS

About the African Development Foundation

The 1980 African Development Act established a bold and unique mission to ensure that United States
development dollars would bypass layers of governmental inefficiencies and work directly at the
community level in Africa. This new approach aimed to maximize the participation of the poor in the
identification, design, implementation, and evaluation of projects addressing the most pressing social and
economic needs of the local community. ADF shares a common commitment to form a united front with
other United States foreign assistance agencies to combat poverty and the conditions that sustain it. ADF
invests directly in African-owned enterprises, farming cooperatives, and community-based groups to
create jobs and better incomes for poor communities. Currently, ADF has 316 active grants (including
Cooperative Agreements with African Partner Organizations) in 18 countries, representing over $56
million in direct funding to enterprises, community groups, and local development organizations.

Analysis of Financial Statements

ADF is pleased to report that in FY 2008 the Foundation continued to receive an unqualified opinion on all
financial statements from its independent auditors, Leonard G. Birnbaum and Company. Since FY 2001, ADF
has received an unqualified opinion on the Balance Sheet, the Statement of Net Costs, the Statement of Net
Position, and the Statement of Budgetary Resources.

Assets

ADF’s Fund balance with Treasury increased, from $24.8 million at the end of FY 2007 to $31.5 million
at the end FY 2008. ADF’s FY 2008 appropriation was $7 million higher than the FY 2007 appropriation.
The Continuing Resolution in effect during the first quarter of FY 2008 resulted in a delay in the Agency’s
initiation of new programming. ADF obligates multi-year grants in their entirety and disburses the funds
over a period of two to three years, resulting in a higher fund balance than would occur were the funds to
be disbursed in a shorter time period.

Cash and other monetary assets consist of foreign currency donations made by African governments and
private-sector entities with which ADF has established strategic partnerships. The funds are held in bank
accounts in each country where such a partnership is in effect. These assets increased, from $6.4 million
at the end of FY 2007 to $8.2 million at the end of FY 2008, primarily due to new donations from
strategic partners in Rwanda and Nigeria during FY 2008.

Liabilities and Net Position

Liabilities did not change significantly from FY 2007 to FY 2008. ADF’s Net Position (the sum of the
Unexpended Appropriations and Cumulative Results of Operations) at the end of 2008 as shown on the
Balance Sheet and the Statement of Changes in Net Position was $41.5 million, a $9 million increase
from the previous fiscal year. Unexpended Appropriations of $32.3 million represent funds appropriated
by the Congress for use over multiple years that were not expended by the end of FY 2008. Cumulative
Results of Operation of $9.2 million consists primarily of funds donated by strategic partners that were
not expended by the end of FY 2008.

Net Cost of Operations

The net cost of operations is defined as the gross (i.e., total) cost incurred by the Agency, less any
exchange (i.e., earned) revenue. Program costs assigned to program activities, such as grants and
cooperative agreements, decreased from $16.3 million in FY 2007 to $15.2 million in FY 2008, due
primarily to reduced program activities in Ghana and restructuring of the Africa Regional Office. Costs
not assigned to program, such as office expenses, staff salaries, and other administrative costs, decreased
from $11.1 million in FY 2007 to $10.5 million in FY 2008. This decrease is due to ADF’s continuing
effort to reduce overhead and to become a more efficient organization.

Close to one-third of ADF’s non-program expenses are related to payroll. The next most significant
category of expense, also at approximately one-third, relates to the on-the-ground presence ADF maintains
in African countries. The remaining one-third relates to rent, travel, supplies, publications, training,
contractual services, and information technology.

Budgetary Resources

ADF’s budgetary resources consist of its annual appropriation from Congress, which are available for two
years, and donations from strategic partners. ADF’s FY 2007 appropriation was $23 million; its FY 2008
appropriation was $30 million. ADF received $4.7 million in donations from strategic partners,
representing an increase from $3.7 million received in FY 2007.

Limitations of Financial Statements

ADF's principal financial statements have been prepared to report the financial position and results of
operations, pursuant to the requirements of 31 U.S.C. 3515 (b). While the statements have been prepared
from books and records in accordance with generally accepted accounting principles (GAAP) for federal
entities and the formats prescribed by the Office of Management and Budget, the statements are in addition to
the financial reports used to monitor and control budgetary resources which are prepared from the same books
and records.

The statements should be read with the realization that they are for a component of the U.S. Government, a
sovereign entity.

ADF Quality Assurance, Internal Controls, and Legal Compliance

A key to the success of ADF’s methodology is the hands-on approach that is taken with every grantee. As
soon as a grantee receives its first disbursement, a Regional Program Director and Portfolio Analyst begin
monitoring. Regional Directors and Portfolio Analysts take an active role in monitoring budget execution,
approving disbursements, approving budget shifts, reviewing expenditure reports, making adjustments to the
timing of grantee activity, and even recommending suspension and termination, if the need should arise.

At the May 5th, 2008 ADF Board of Directors meeting, the ADF President issued a comprehensive
directive that assigned responsibility for establishing, maintaining, evaluating, and reporting on internal
controls. The directive included establishing an expanded and more independent Internal Audit function,
a new Monitoring and Evaluation unit to access and report on ADF program effectiveness, clearly defined
support functions of the Finance division, improved Contract Management and oversight, and broader
program management responsibilities and accountability assigned to the Regional Program Directors.
The directive included specific instructions as follows:

    ¾ The Audit Officer presents to the Office of the President the status (planned vs. actual) of: project-
      level audits by country; partner organization audits; Country Coordinator office audits; country level
      audit training completed; and audit policy status.

                                                     3
    ¾ The Monitoring and Evaluation (M&E) Officers present to the Office of the President the status of
      project-level M&E activities by country and a report on one of two annual case studies on ADF
      program effectiveness.
    ¾ The Finance Officer will report on budget management, funds accounting, disbursement activities,
      and the financial compliance of ADF operations, including the status of internal controls effectiveness
      and deficiencies.
    ¾ The Contracting Officer will report on contracting status and compliance of ADF operations.
    ¾ The Regional Program Directors present to the office of the President the state of operations at the
      country level. Status information to include: Country Coordinator and Partner Organization staff
      levels; staff training status; disbursement amounts and timing summary; project reporting
      performance, client financial training status; and project performance summary (remediation,
      termination, close out).

In FY 2009 the directive will be expanded to add the Management and Administration section to the bi-annual
management review process that includes reporting and status of human resource management, information
technology compliance, and records management.


Internal Operations

Inspector General Audit
In March 2008, the Inspector General (IG) advised ADF it had initiated a broad audit of ADF programs and
operations based on a letter originating from Congressman Payne’s office in October 2007. The ADF Board
of Directors and the President welcomed the IG involvement and have been fully cooperative throughout the
process. During the process ADF remains committed to conducting its own internal review and taking
corrective actions wherever needed. The IG has completed their program audits of ADF activities in Senegal
and Ghana. ADF has received the IG reports for each country and formally responded to the IG findings and
recommendations.

Management proactively took several important steps to improve internal controls and compliance practices in
ADF operations:

1) Enhanced Internal Audit Function
Prior to the IG audit activities, ADF management moved to establish and strengthen an independent internal
audit capability that reports directly to the ADF President and the Board of Directors. The internal audit
function will focus its efforts on assessing compliance with ADF financial policy and practices at the Country
Coordinator Offices, ADF Partner Organizations, and the ADF project grantees. Each assessment will be
followed by an Internal Audit Report and follow-up project plan.

2) Ghana Program Suspension
ADF Management has suspended any new project funding to the Ghana program until:
    •   The report of the Inspector General has been received and corrective actions have been completed by
        ADF; and
    •   ADF has implemented the necessary internal controls, management practices, and monitoring/
        evaluation to ensure the appropriate use of taxpayer funds.



                                                      4
3) Improved Contracting Practices
During FY 2006 and 2007 contracting was managed at Headquarters through the Finance Division by two
Contracting Officers trained in Federal Acquisitions Regulations. In the middle of FY 2007, contracting for
professional services and facilities for three African countries was delegated to the Africa Regional Office
(ARO) in Accra, Ghana as a part of an organizational shift to locate ADF management and oversight closer to
the field of operations.

As a cost savings and control measure, all contracting authorities were returned to Washington, D.C. under the
singular control and authority of the newly formed Management and Administration Division, which reports to
the President of ADF. Additionally, a contract compliance specialist was engaged in November 2007 to
review all existing ADF contracts to ensure that all agreements were in compliance with federal procurement
standards and compensation levels were in line with ADF and client requirements. Any irregularities detected
have been brought to the attention of ADF management and the Inspector General’s office for appropriate
action. Two contracting specialists have been retained to clear the back log of outstanding contract and
procurement needs required to support field program activities.

4) Increased Transparency
To make ADF a model of openness and transparency in the Federal government, ADF has simplified the steps
needed for the public to access and view information about ADF operations and programs. In December 2007,
ADF launched the “Quick Source Information Directory” which is accessible from the ADF public website,
www.usadf.gov. This Information Directory is organized into four primary categories: Financial; Personnel;
Contracts; and Program. Users can view information online or save it to their computer for use at a later time.
This initiative is in keeping with the intention and spirit of the recently enacted Coburn-Obama Act, which
requires the full disclosure to the public of all entities or organizations receiving federal funds.

Management of Strategic Partnerships

Strategic partnerships have been central to ADF’s unique business model. Over the past several years, ADF
has established partnerships with a number of African governments and private sector entities for the purpose
of leveraging U.S. taxpayer funds, thereby increasing the impact of ADF’s programs on the poor in Africa.
ADF has sought to obtain a one-to-one match for its appropriated dollars dedicated to programming. Since the
establishment of strategic partnerships, however, the Foundation has learned several important lessons. Actual
collections have lagged behind projections. Utilization of funds, also, in some cases, has been complicated by
the desire of donors to have input in the review and award process. Over the four-year period ending
September 30, 2008, ADF collected only $14.1 million of the over $56 million pledged. Of the amount
collected ADF to date has utilized $10.8 million.

At the beginning of FY 2008, ADF’s Board of Directors recognized that the strategic partnership approach
needed retooling. ADF’s new president was given the charge to assess the program’s structure and make
changes to ensure that collections match pledged donations. Learning from past collection efforts, ADF has
re-emphasized the Regional Program Director (RPD) role and responsibility in actively managing strategic
partner relationships. Management of strategic partnerships is a component of semi-annual program reviews
for each RPD. Strategic partner donations are a component of ADF’s bi-weekly funding review meeting and
report. ADF currently holds an unobligated balance of $3.7 million of strategic partner funds on hand and,
when possible, will utilize these funds in 2009.

Project Cycle Timelines

As a small-scale development foundation, ADF was established with a unique mission and a core operating
principle to provide grants and partnership development funds quickly and efficiently. While there are several
                                                      5
internal process issues that ADF must address, a new timeline has been established requiring that the review
and evaluation of all funding proposals be completed no later than August 31 of each fiscal year. September
will be devoted to finalizing all new grant obligations; 100 percent of first disbursements for new projects must
be completed by the end of October each year. Additionally, the core internal process associated with project
selection, design and approval is being reviewed and streamlined. These new standards for FY 2008 and 2009
will more than cut in half the time needed to get grant money to a qualified applicant.

Operating Expense Ratios

The operating expense ratio is one measure of an organization’s efficiency in carrying out its mission.
Accurately calculating operating expenses (OE) must be done against fixed income i.e. appropriated dollars.
Including un-appropriated funds pledged but not received in OE calculations, as was done on occasion in the
past, provides a distorted view of the actual operating expense ratio. In the future, OE will be measured only
against appropriated dollars. Collections and leveraged funds will be correctly identified as funds available to
ADF, but because of their uncertainty the numbers will not be used as a justification for long term staff
expansion and program budgets. ADF management has undertaken a comprehensive review of all ADF
operating expense categories and has taken actions to reduce ADF’s expense ratio. Actions to date have
included personnel reductions and the elimination of redundant field office activities. This is being done on an
urgent basis and is fully supported by the ADF Board of Directors.

Personnel Practices

ADF management has completed a full review of all existing contracts and has reduced the use of American
contractors overseas and in Washington. While currently 51 percent of ADF’s workforce is African, ADF will
continue to increase the number of Africans in country management positions overseas.

All Recruitment, Retention, and Relocation (RRR) incentives in place as of FY2007 have been reviewed and
eliminated. Human resource policy has been revised to withdraw the use of future RRR incentive programs at
ADF. The use of performance incentives will continue to be a component of ADF human resource
management practices in ways that support the results based focus of the agency.

Management has drafted a re-structuring plan for 2009 to re-align and balance staff levels, and to provide for
ADF’s continuity of services. ADF will explore alternative personnel systems as a means to gain greater
levels of cost effectiveness. ADF has also re-instituted a summer intern program.

Organization Realignments

ADF was intended to maximize the amount of project money flowing directly to community-based
organizations and local enterprises by operating as a low-overhead, highly responsive organization. In October
2007, the ADF organizational structure was increasingly moving toward duplicate management in field
operations and increasing overhead costs associated with additional upper level management positions. The
2007 organizational model also relied heavily on US expert contractors based in Africa. The cumulative effect
of this structure was to reduce the amount of appropriated funds directly available for African project grants.
In 2008, substantial progress was made in reversing this trend by reducing expensive contract positions and in
consolidating management of field operations. A new organizational structure will be completed in FY 2009.
Restructuring ADF is an important step to reduce overall operating expenses and to speed up the delivery of
services to African communities. Several other important benefits are expected to be gained from this
reorganization, including greater focus on accountability and results, greater separation of duties, and
streamlined processes. The restructuring also places greater emphasis on monitoring and evaluation.



                                                       6
Identification of Key Factors That Could Affect Achievement of General Goals and Objectives

ADF’s programs are designed to assist “the poorest of the poor in Africa.” Our mandate is to build a
broad base for sustainable economic development in Africa, thereby enabling the people of Africa to
break the vicious cycle of poverty. There are a number of factors that could affect program goals and
objectives, including poor communication systems, poor infrastructure, unsuitable health conditions,
poverty, the threat of civil strife, and political instability. Despite these challenges, ADF projects have
proven to be highly successful.




                                                    7
                              AFRICAN DEVELOPMENT FOUNDATION
                              ANNUAL PERFORMANCE INFORMATION

ADF’S Purpose, Mission, Vision, and Goal Statements:

  Purpose: Fostering hope, growth, and goodwill in Africa.
  Vision: To end the poverty of a million Africans by investing in their ideas.
  Mission: To support underserved communities in Africa with resources that help create better
           economic opportunities for all.

The 1980 African Development Act established a unique mission to ensure that United States
development dollars would bypass layers of governmental inefficiencies and work directly with
marginalized and under-served populations at the community level to promote economic development.
ADF was established to operate in an expedited, responsive manner, with low overhead levels. ADF
seeks to maximize the participation of the poor in the identification, design, implementation, and
evaluation of projects that address the most pressing social and economic needs of the local community.

The specific legislative language states that ADF shall give priority “to projects which community groups
undertake to foster their own development and in the initiation, design, implementation and evaluation in
which there is the maximum feasible participation of the poor.” The organizations must be “indigenous
to Africa.”

The ADF Act (Section 290h-2) clearly outlines the purposes of all ADF activities:

(1)     To strengthen the bonds of friendship and understanding between the people of Africa and the
        United States;
(2)     To support self-help activities at the local level designed to enlarge opportunities for community
        development;
(3)     To stimulate and assist effective and expanding participation of Africans in their development
        process; and,
(4)     To encourage the establishment and growth of development institutions which are indigenous to
        particular countries in Africa and which can respond to the requirements of the poor in those
        countries.

ADF’s Management Priorities

Management has established eight operational priorities for FY 2008 and 2009 to ensure that ADF is
effectively meeting its obligations to the United States taxpayer and making a positive impact in Africa
(see table 11 below). The majority of these focus on ADF programming activities and achieving greater
cost effectiveness in operations in order to increase the amount of appropriated dollars going directly to
poor communities in Africa.

2008 - 2009 Operational Priorities

 1.   Maintain operations in all of the countries with programming commitments and ensure program consistency
      with ADF’s mandate and project selection criteria.
 2.   To the maximum extent possible, ensure Africans are key personnel in the management of all field operations.
 3.   Continue to reduce ADF overhead expenses and maximize funds available for Project Grants and partner
      organizations.

                                                        8
 4.    Serve as a model Federal agency for openness and transparency.
 5.    Strengthen ADF’s monitoring and evaluation unit using existing resources to elevate our emphasis on project
       results, outcomes, and lessons learned.
 6.    Review, adjust as necessary, and vigorously pursue all strategic partner MOUs and committed funding levels.
 7.    Explore the establishment of new ADF programs in highly marginalized communities located in Western
       Sahara, Mauritania (done), the Tuareg area of Niger and Mali (done), Northern Kenya, Somalia, Somaliland,
       Eritrea, the Casamance area of Senegal, and Guinea-Bissau; and where feasible to include de-mobilized
       soldier groups.
 8.    Consistent with the ADF Act, explore additional public/private partnerships as a means of leveraging funds.

Several important management actions are underway to improve on programming, financial, and
personnel practices. A number of the most important steps have been completed to simplify and
streamline the project review and approval processes and lower costs to more efficiently achieve ADF
mission objectives. Cost reduction actions taken to date include major contractor reductions,
compensation adjustments, elimination of redundant regional office functions, de-layering ADF’s
organizational structure, and retaining current Washington Office facilities.

Additionally, the Foundation’s Board of Directors and President have completed several important steps
to enable the agency to strengthen program operations further. These include:

      ¾ Strengthened the Foundation’s focus in accordance with its original legislative intent.
      ¾ Improved field operations with clearer oversight roles and filling key positions in local offices.
      ¾ Developed a streamlined project selection, design, and approval process, reducing the time
        between project application and disbursement to 180 days.

Performance Highlights

Because of the time-consuming nature of field data collection and analysis in remote rural areas of Africa,
the investment results for a given fiscal year cannot be available in time for that year’s PAR.
Consequently, the FY 2008 PAR focuses on performance data for FY 2007. Due to the time lag time in
the client’s reporting schedule and field data collection, the performance indicators for ADF’s
investments focus on the 12-month period ending June 30 of each year (“the API/PART reporting year”).

In 2007, ADF-funded projects produced some important results:

      ¾ In total, 46,000 people directly benefited through jobs created/improved; 47% of those who
        benefited are women.
      ¾ Gross enterprise revenues increased by $56.8 million over baseline values.
      ¾ Export sales grew by $5 million over baseline exports.

Beyond the numbers, ADF-funded projects are making a difference in the quality of life for Africans in
many hundreds of poor communities across the countries where ADF has active programs. Project
narratives that describe the types of projects ADF supports and the impact these projects can have on
people in Africa can be viewed online at www.usadf.gov. Also, see the link for “The Matameye
Women's Cooperative” on the home page.




                                                         9
       Program Performance Indicators - Growth

       A detailed set of ADF performance indicators is displayed in the table below. Performance indicators in
       FY 2007 showed significant improvements in the effectiveness of ADF funds to help grow Small and
       Medium Sized Enterprises in Africa. For example, the “investment multiplier” increased from 2 in FY
       2006 to 3.5 in FY 2007. This indicator tracks how much sales revenues increased for each ADF dollar
       provided to that enterprise. Although considerable time and effort is needed to develop local growth
       engines, ADF clients prove they can productively use ADF funds to increase revenues and expand
       operations.

       Program Performance Indicators – Long Term Viability

       Of particular interest are the two important and related indicators of profitability (indicator #3) and
       sustainability (indicator #5). These indicators significantly increased in FY 2007. The FY 2007
       performance data shows that 86 percent of projects in ADF’s portfolio are sustainable and 80 percent are
       profitable. This shows the long-term staying power of the ADF development assistance approach. ADF-
       supported enterprises and community groups continue to provide needed jobs and increased incomes to
       local communities well after ADF support has ended.

                                 ADF’s PART Performance Indicators and Targets for FY 2007
     Key Perform ance Indicators                                                           Actuals                                      Targets
                                                                             FY05           FY06           FY07           FY05           FY06      FY07
     PART Indicator
1    Cumulative revenue grow th (active + expired) 1                     $28,060           $43,582        $56,395        $23,000        $26,000   $31,000
2    Investm ent m ultiplier (active + expired) 1                            1.68           2.05           3.48               1.8          2        2.20
3    Profitability rate (active)                                             38%            44%            81%            65%             70%       70%
     CRG compliance rate (active)                                            13%            39%       2    31%       2    20%             50%       70%
4

5    Sustainability rate (expired)                                           59%            62%            86%                0%          0%        75%
6    Strategic partnership funding as percent of total project funding       31%            32%            25%            28%             35%       40%
                                                          1                            3              3
7    Cumulative follow -on financing (active + expired)                  $     9,501       $ 29,610       $ 36,399            TBD         TBD          TBD
8    External enterprise trust fund leveraging (annual)                            -           -              -          $ 1,000        $ 2,000   $ 2,000
9    Overhead rate (annual)                                                  31%            32%            36%            25%             25%       25%
10   Median disbursement time in days (annual)                                NA             NA             NA                45           26          NA
     API/Other
11   Number of active projects 4                                              204            156            250                     USD in Thousands
                                              4
12   Current grant value of active projects                              $33,947           $32,960        $26,695
13   Proportion of current grant value for enterprise grow th                70%            75%            75%
                                                      5
14   Cumulative disbursements (enterprise grow th)                       $16,717           $21,210        $16,202
15   New project obligations (EEI + EDI)                                 $11,450           $8,047         $13,343
16   Ow ners and full-time w orkers (active)                                 114,597        46,553         45,870
17   Proportion of w omen ow ners and full-time w orkers                     65%            46%            47%
18   Proportion of revenue grow th from active projects                      97%            19%            16%
                                                                                                                          1
19   Investment multiplier (active)                                           1.9            0.6              0.8             Expired w ithin past 3 years
                                                                                       3              3                   2
20   Investment multiplier (expired)                                          0.4            5.1             11.4             Post revaluation
                                                                                                                          3
21   Cumulative grow th in value of loans disbursed (active)             $6,302            $3,940         $ 4,188             Incomplete data
                                                                                                                          4
22   Cumulative grow th in export sales (active + expired)                    ND             ND           $4,970           Number of active EEI in 2006;
23   Cumulative RIC contributions received (active)                          $599           $202           $942           EEIs and EDIs in 2007
                                                      2                                                                   5
24   Cumulative RIC contributions expected (active)                      $4,071            $5,470         $7,551              With baseline sales data

                                                                         10
November 7, 2008


                       AFRICAN DEVELOPMENT FOUNDATION
                         OMB Circular A-123 Assurance Letter


Fiscal Year 2008

Annual Assurance Statement on Internal Control over Financial Reporting

The African Development Foundation’s management is responsible for establishing and
maintaining effective internal control over financial reporting, which includes safeguarding of
assets and compliance with applicable laws and regulations. The ADF conducted its assessment
of the effectiveness of ADF' internal control over financial reporting in accordance with OMB
Circular A-123, Management’s Responsibility for Internal Control. Based on the results of this
evaluation, the ADF can provide reasonable assurance that internal control over financial
reporting as of June 30, 2008 was operating effectively and no material weaknesses were found in
the design or operation of the internal controls over financial reporting.


Signed:

/s/
Lloyd O. Pierson
President
November 7, 2008




                          AFRICAN DEVELOPMENT FOUNDATION
                                MESSAGE FROM THE CFO

I am pleased to present the FY 2008 comparative Financial Statements for the African
Development Foundation. These statements were prepared in accordance with generally
accepted accounting principles in the U.S.

As in previous years, ADF has no material weaknesses or instances of noncompliance to report.
The agency is in full compliance with the Federal Managers Financial Integrity Act, the Federal
Financial Management Improvement Act, and all other laws and regulations to which the agency
is subject.


Signed:



/s/
William E. Schuerch
Chief Financial Officer




                                              12
                                 LEONARD G. BIRNBAUM AND COMPANY, LLP
                                            CERTIFIED PUBLIC ACCOUNTANTS
                                                  WASHINGTON OFFICE
                                                  6285 FRANCONIA ROAD
                                                ALEXANDRIA, VA 22310-2510


                                                       703-922-7622
                                                    FAX: 703-922-8256
LESLIE A. LEIPER                                                                                     WASHINGTON, DC
LEONARD G. BIRNBAUM                                                                               SUMMIT, NEW JERSEY
DAVID SAKOFS                                                                                 REDWOOD CITY, CALIFORNIA
CAROL A. SCHNEIDER
DORA M. CLARKE




                                     INDEPENDENT AUDITOR’S REPORT

        To the Board of Directors and the President,
        African Development Foundation:

                We have audited the African Development Foundation’s (ADF) Balance Sheets, Statements
        of Net Cost, Statements of Changes in Net Position, and Statements of Budgetary Resources
        (Principal Financial Statements) as of, and for the years ended, September 30, 2008 and 2007; we
        have considered internal control over financial reporting in place as of September 30, 2008; and we
        have tested compliance with laws and regulations.

                In our opinion, ADF’s 2008 and 2007 Annual Financial Statements are presented fairly in
        all material respects.

                We found the following:

            •   no instances of material weakness in the internal controls over financial reporting,
            •   a significant deficiency in ADF’s internal control in management of grants, and
            •   no instances of noncompliance with selected provisions of applicable laws and regulations
                involving ADF’s financial management system.

        Each of these conclusions is discussed in more detail below. This report also discusses the scope of
        our work

                                     ANNUAL FINANCIAL STATEMENTS

                In our opinion, ADF’s 2008 and 2007 Balance Sheets, Statements of Net Cost, Statements
        of Changes in Net Position, and Statements of Budgetary Resources, including the notes thereto,
        present fairly, in all material respects, ADF’s financial position as of September 30, 2008 and 2007,
        and the net cost of operations, the changes in net position, and use of budgetary resources, for the
        years then ended, in conformity with accounting principles generally accepted in the United States
        of America.




                                                          13
                  MEMBERS OF THE AMERICAN INSTITUTE OF CERTIFIED PUBLIC ACCOUNTANTS
                                    INTERNAL CONTROL

        We considered ADF’s internal control over financial reporting in order to determine our
auditing procedures for the purpose of expressing our opinion on the Annual Financial Statements.
We limited our internal control testing to those controls necessary to achieve the objectives
described in the Office of Management and Budget’s (OMB) Bulletin 07-04, Audit Requirements
for Federal Financial Statements. We did not test all internal controls relevant to operating
objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982, such as
those controls relevant to ensuring efficient operations. The objective of our audit was not to
provide assurance on internal control. Consequently, we do not provide an opinion on internal
control.

       The objectives of internal control are to provide management with reasonable, but not
absolute, assurance that the following objectives are met:
       •   transactions are properly recorded and accounted for to permit the preparation of
           reliable financial reports and to maintain accountability over assets;

       •   funds, property, and other assets are safeguarded against loss from unauthorized
           acquisition, use, or disposition; and

       •   transactions, including those related to obligations and costs, are executed in
           compliance with laws and regulations that could have a direct and material effect on the
           financial statements and other laws and regulations that the Office of Management and
           Budget (OMB), or ADF management have identified as being significant for which
           compliance can be objectively measured and evaluated.

         Our consideration of internal control would not necessarily disclose all matters of internal
control over financial reporting that might be significant deficiencies. Under standards issued by
the American Institute of Certified Public Accountants, a significant deficiency is a control
deficiency, or a combination of control deficiencies, that adversely affects the entity’s ability to
initiate, authorize, record, process, or report financial data reliably in accordance with generally
accepted accounting principles such that there is more than a remote likelihood that a misstatement
of the entity’s financial statements that is more than inconsequential will not be prevented or
detected. We consider the following inadequacies in ADF’s management of grants to be a
significant deficiency:

       •   management has not implemented action to remediate problems associated with project
           implementation or terminated grants of ineffective or failing projects, particularly (1)
           those with weak financial management practices, (2) where fraud and misuse of funds is
           indicated, (3) where ineligible and/or unsupported costs were charged to the grants, and
           (4) where the grantees were not in compliance with the terms of their agreements,
       •   management has not effectively implemented monitoring and evaluation processes to
           ensure that reporting by grantees was accurate, complete and supported or provided
           related training,
       •   management has not executed audits of certain partner organizations and grantees as
           planned,
                                                14
       •   audits that have been completed were not performed in compliance with ADF policy,
           and
       •   management has not performed quality control procedures of the audits of ADF’s grant
           programs.

        A material weakness is a significant deficiency, or combination of significant deficiencies,
that result in a more than remote likelihood that a material misstatement of the financial statements
will not be prevented or detected. Because of inherent limitations in internal controls,
misstatements, losses, errors or irregularities may nevertheless occur and not be detected.
However, we noted no matters involving the internal control and its operations that we considered
to be material weaknesses as defined above.

                      COMPLIANCE WITH LAWS AND REGULATIONS

        ADF’s management is responsible for complying with laws and regulations applicable to
ADF. As part of obtaining reasonable assurance about whether the financial statements are free of
material misstatement, we performed tests of ADF’s compliance with certain provisions of laws
and regulations, noncompliance with which could have a direct and material effect on the
determination of financial statements amounts, and certain other laws and regulations specified in
OMB Bulletin 07-04, including the requirements referred to in FFMIA. We limited our tests of
compliance to these provisions, and we did not test compliance with all laws and regulations
applicable to ADF. The objective of our audit of the Annual Financial Statements, including our
tests of compliance with selected provisions of applicable laws and regulations, was not to provide
an opinion on overall compliance with such provisions. Accordingly, we do not express such an
opinion.

        Material instances of noncompliance are failures to follow requirements or violations of
prohibitions in statutes and regulations, which cause us to conclude that the aggregation of the
misstatements resulting from those failures or violations is material to the financial statements or
that sensitivity warrants disclosure thereof.

        The results of our tests of compliance with the laws and regulations described in the
preceding paragraph, exclusive of FFMIA, disclosed no instances of noncompliance with laws and
regulations that are required to be reported under Government Auditing Standards and OMB-
Bulletin 07-04.

        Under FFMIA, we are required to report whether the ADF’s financial management systems
substantially comply with the federal financial management system requirements, applicable
accounting standards, and the United States Government Standard General Ledger at the
transaction level. To meet this requirement, we performed tests of compliance with FFMIA section
803(a) requirements. The results of our tests disclosed no instances where the ADF’s financial
management systems did not substantially comply with the Federal financial management system
requirements, applicable Federal accounting standards, or the United States Government Standard
General Ledger at the transaction level.



                                                15
                          RESPONSIBILITIES AND METHODOLOGY

ADF management has the responsibility for:

       •   preparing the Annual Financial Statements and other accompanying information in
           conformity with accounting principles generally accepted in the United States of
           America;

       •   establishing and maintaining effective internal control; and

       •   complying with applicable laws and regulations.

        Our responsibility is to express an opinion on these Annual Financial Statements based on
our audit. Auditing standards generally accepted in the United States of America require that we
plan and perform the audit to obtain reasonable assurance about whether the Annual Financial
Statements are free of material misrepresentation and presented fairly in accordance with
accounting principles generally accepted in the United States of America. We considered ADF’s
internal control for the purpose of expressing our opinion on the Annual Financial Statements
referred to above and not to provide an opinion on internal control. We are also responsible for
testing compliance with selected provisions of applicable laws and regulations that may materially
affect the financial statements.

       In order to fulfill these responsibilities, we

          examined, on a test basis, evidence supporting the amounts and disclosures in the
           Annual Financial Statements;

          assessed the accounting principles used and significant estimates made by management;

          evaluated the overall presentation of the Annual Financial Statements;

          obtained an understanding of the internal controls over financial reporting by obtaining
           an understanding of ADF’s internal control, determined whether internal controls had
           been placed in operation, assessed control risk, and performed tests of controls;

          obtained an understanding of the process by which ADF identifies and evaluates
           weaknesses required to be reported under FMFIA and related agency implementing
           procedures;

          tested compliance with selected provisions of laws and regulations that may have a
           direct and material affect on financial statements;

          obtained written representations from management; and

                                                   16
          performed other procedures, as we considered necessary in the circumstances.

        Our audits were conducted in accordance with auditing standards generally accepted in the
United States of America, the standards applicable to financial audits contained in Government
Auditing Standards and OMB Bulletin 07-04. We believe that our audits provide a reasonable
basis for our opinion.

        The Management’s Discussion and Analysis is not a required part of the Annual Financial
Statements, but are supplementary information required by OMB Circular A-136, Financial
Reporting Requirements, and the Federal Accounting Standards Advisory Board. We have applied
certain limited procedures, which consisted principally of inquiries of management regarding the
methods of measurement and presentation of the supplementary information. However, we did not
audit the information and express no opinion on it.

         This report is intended for the information of the Inspector General of U.S. Agency for
International Development and management of the African Development Foundation. This
restriction is not intended to limit the distribution of this report, which is a matter of public record.



                                               /s/
                                               Leonard G. Birnbaum and Company, LLP

Alexandria, Virginia
November 7, 2008




                                                  17
                                    African Development Foundation
                                          BALANCE SHEETS
                                   As of September 30, 2008 and 2007

                                                                                  FY 2008         FY2007
ASSETS

    Intragovernmental:
         Fund balance with Treasury (Note 3)                                  $ 31,478,499    $ 24,842,615
    Total intragovernmental                                                     31,478,499      24,842,615

    Cash and other monetary assets (Note 4)                                       8,276,924       6,405,219
    Accounts receivable                                                                 925             268
    Advances and prepayments (Note 5)                                             2,090,886       1,649,341
    General property, plant and equipment – Net (Note 6)                            676,622         610,076


TOTAL ASSETS                                                                  $ 42,523.856    $33,507,519


LIABILITIES

    Intragovernmental:
         Accounts payable                                                     $    157,965    $            -
    Total intragovernmental                                                        157,965                 -

    Accounts payable                                                          $    419,143         489,475
    Other (Note 7)                                                                 400,449         402,304

TOTAL LIABILITIES                                                             $    977,557    $    891,779

NET POSITION
   Unexpended Appropriations                                                    32,344,209     24,359,219
   Cumulative Results of Operations                                              9,202,090      8,256,521
   TOTAL NET POSITION                                                           41,546,299     32,615,740

TOTAL LIABILITIES AND NET POSITION                                            $42,523.856     $33,507,519




                                                       18
                         The accompanying notes are an integral part of these statements.
                                     African Development Foundation
                                     STATEMENTS OF NET COST
                            For the Years Ended September 30, 2008 and 2007


                                                                                   FY 2008       FY 2007
PROGRAM COSTS

    Gross Costs                                                                $ 15,270,768    $ 16,349,502

    Less: earned revenue                                                            (17,380)        (7,535)

    Net program costs                                                             15,253,388     16,341,967


Cost not assigned to program                                                      10,535,962     11,117,425


NET COST OF OPERATIONS                                                         $ 25,789,350    $ 27,459,392




                                                         19
                           The accompanying notes are an integral part of these statements.
                                     African Development Foundation
                           STATEMENTS OF CHANGES IN NET POSITION
                            For the Years Ended September 30, 2008 and 2007



                                                                                   FY 2008        FY2007

Cumulative Results Of Operations:

    Beginning Balances                                                          $ 8,256,521     $ 6,567,451
    Adjustments:
     Corrections of errors (Note 9)                                               (1,247,505)             -
    Beginning Balances, as adjusted                                                7,009,016      6,567,451

Budgetary Financing Sources:
   Appropriations used                                                            23,019,515     25,213,795

Other Financing Sources (Non-Exchange):
   Donations and forfeitures of property                                           4,713,923      3,717,351
   Imputed financing                                                                 231,606        217,316
   Other                                                                              17,380              -

 Total Financing Sources                                                          27,982,424     29,148,462
 Net Cost of Operations                                                           25,789,350     27,459,392

 Net Change                                                                        2,193,074      1,689,070

    Cumulative Results Of Operations:                                              9,202,090      8,256,521


Unexpended Appropriations:

 Beginning Balances                                                               24,359,219     27,055,611
 Adjustments:
   Corrections of errors (Note 9)                                                  1,247,505              -
 Beginning Balances, as adjusted                                                  25,606,724     27,055,611


Budgetary Financing Sources:
   Appropriations received                                                        30,000,000     22,799,629
   Other adjustments                                                                (243,000)      (282,226)
   Appropriation used                                                            (23,019,515)   (25,213,795)
     Total Budgetary Financing Sources                                             6,737,485     (2,696,392)

     Total Unexpended Appropriations                                              32,344,209     24,359,219

     Net Position                                                               $41,546,299     $32,615,740




                                                         20
                           The accompanying notes are an integral part of these statements.
                                    African Development Foundation
                           STATEMENTS OF BUDGETARY RESOURCES
                           For the Years Ended September 30, 2008 and 2007
                                                                                  FY 2008          FY2007

BUDGETARY RESOURCES

   Unobligated Balance, brought forward, October 1:                             $ 4,505,790      $ 6,257,243

   Recoveries of Prior year unpaid obligations                                    2,233,710        1,282,953

   Budget Authority
     Appropriation                                                               34,731,303      27,043,780

   Nonexpenditure transfers, net, anticipated, and actual                                    -       88,681

   Permanently not available                                                       (243,000)        (282,226)

TOTAL BUDGETARY RESOURCES                                                      $41,227,803       $34,390,431

STATUS OF BUDGETARY RESOURCES

   Obligations Incurred – Direct                                                 31,224,438      29,884,641

   Unobligated balances (Note 3)
     Apportioned                                                                  3,558,027          765,950
     Exempt from apportionment                                                    3,737,028        1,261,310

   Unobligated balances – unavailable (Note 3)                                    2,708,310        2,478,530

TOTAL STATUS OF BUDGETARY RESOURCES                                            $41,227,803       $34,390,431

CHANGE IN OBLIGATED BALANCE

   Obligated Balance, Net – as of October 1
     Unpaid Obligations, brought forward                                         26,742,043      23,525,888

   Obligations Incurred                                                          31,224,439      29,884,641

   Gross Outlays                                                                (25,980,713)     (25,385,533)

   Recoveries of prior year unpaid obligations, actual                           (2,233,710)      (1,282,953)

   Obligated Balance, Net - End of Period
     Unpaid Obligations                                                          29,752,058      26,742,043

NET OUTLAYS
   Gross Outlays                                                                 25,980,713      25,385,533
   Net outlays                                                                   25,980,713      25,385,533




                                                         21
                          The accompanying notes are an integral part of these statements.
                                        African Development Foundation
                                        Notes to the Financial Statements
                                            As of September 30, 2008


Note 1. Organization

    The African Development Foundation (“ADF” or “the Foundation”) is a government-owned corporation
    established by Congress under the African Development Foundation Act in 1980 and began operations in 1984.
    The Foundation is the principal agency of the U.S. Government that supports community-based, self-help
    initiatives that alleviate poverty and promote sustainable economic and social development in Africa at the
    grassroots level. The Foundation’s headquarters are in Washington, D.C. ADF maintains partnerships with
    local organizations, staffed with African professionals, in each of the countries in which it operates. Over the
    past 23 years, the Foundation has funded more than 1600 projects in 34 African countries.


Note 2. Significant Accounting Policies

    A. Basis of Presentation

    The accompanying financial statements have been prepared on the accrual basis to report the financial position
    and results of operation in accordance with the concepts and standards contained in the Statements of Federal
    Financial Accounting Standards, as required by the Chief Financial Officers Act of 1990. These statements have
    been prepared from the books and records of the Foundation in accordance with the form and content for federal
    financial statements specified in the Office of Management and Budget (OMB) in OMB Circular No A-136,
    Financial Reporting Requirements, as amended, and the Foundation’s accounting policies, which are
    summarized in this note.

    B. Basis of Accounting

    Transactions are recorded on an accrual basis. Grants are recorded when obligated and expenses are recognized
    when the funds are expended, without regard to receipt or payment of cash. The preparation of the financial
    statements in conformity with generally accepted accounting principles requires management to make estimates
    and assumptions that affect the reported amounts of assets and liabilities, disclosure of contingent assets and
    liabilities at the date of the financial statements, and the reported amounts of grants and expenses during the
    reporting period. Actual results will invariably differ from those estimates.

    C. Fund Balances with Treasury and Cash

    The Foundation maintains the majority of its funds in the U.S. Treasury. These are amounts for which the
    Foundation is authorized to make expenditures and pay liabilities. In addition, commercial, noninterest bearing
    accounts (in local currencies) are maintained with Barclays Bank of Botswana, Citibank Nigeria, and Banco
    Comercial do Atlantico in Cape Verde, Standard Chartered Bank in Ghana, Ecobank in Mali, Citibank and
    Zenith Bank in Nigeria, First National Bank of Swaziland in Swaziland, Standard Chartered Bank in Zambia,
    EcoBank Guinea, EcoBank Benin and Standard Chartered Uganda, Banque Commerciale du Rwanda to process
    grant funds for those countries. Governments with whom ADF has entered Strategic Partnerships deposit
    donations into these accounts. In general, grants are funds equally with appropriated funds and donated funds.
    ADF controls all disbursements from these accounts.




                                                       22
                         The accompanying notes are an integral part of these statements.
D. Foreign Currencies

The Foundation awards grants to private organizations in Africa. Most of the grants are denominated in local
currencies to facilitate accounting by the recipient organizations. Depending on the nature of the transaction,
foreign currencies are translated into dollars at the actual exchange rate received by the Foundation when the
transaction is made or at the prevailing exchange rate at the beginning of the month in which the transaction
occurred. The value of obligations incurred by the Foundation in foreign currencies varies from time to time
depending on the current exchange rate. The Foundation adjusts the value of its obligations at the end of each
quarter during the year to reflect the prevailing exchange rates. Downward adjustments to prior year obligations
based on favorable foreign currency exchange rates will be made available for obligation if the adjustment
occurs within the Foundation’s authorized two year funding period. Upward adjustment to prior year obligations
based on unfavorable foreign currency exchange rate with the U.S. dollar will be made from funds made
available for upward adjustments, if any, or from currently available funds.

E. Grant Accounting

The Foundation disburses funds in advance to grantees to cover their projected expenses over a three-month
period. Grantees report to the Foundation periodically on the actual utilization of these funds. For purposes of
these financial statements, the Foundation treats disbursements to grantees as advances. The advance is reduced
when the grantee reports expenditures. The total grant advance is the total amount disbursed to the grantee less
the total expended for open (nonexpired) grants as of the reporting date. In order to ensure timeliness in
reporting grantee expenditures, the Foundation will use estimates to complete to calculate the last quarter’s
grantee expenditures based on historical expenditure trends since 1996 and disbursement activity funding that
quarter’s activity. The actual expenditures adjustments will be reported in the following quarter’s financial
statements. Once a grant has closed (expired or cancelled) any excess disbursement is reclassified as an
Accounts Receivable.

F. Travel Advances

Advances are given to ADF employees for official travel. Travel advances are recorded as expenses upon
receipt of employee travel vouchers.

G. Property, Plant and Equipment, Net

The space in which the Foundation operates is leased by the Foundation through a multi–year lease. Equipment
is depreciated using the straight–line method over useful lives, which is estimated at five years. Equipment with
an acquisition cost of less than $5,000 or less than two years of life is expensed when purchased.

H. Accounts Payable

Accounts payable represent amounts owed to nonfederal entities, primarily commercial vendors, for goods and
services received by ADF.

I.   Contingencies

The Foundation is a party in various administrative legal actions and claims brought by or against it. According
to the Foundation’s legal counsel, the likelihood of unfavorable outcomes for all these legal actions and claims is
remote. In the opinion of the Foundation’s management, the ultimate resolution of these proceedings, actions,
and claims will not materially affect the financial position or results of operations of the Foundation.

J.   Annual, Sick, and Other Leave

Annual, sick, and other leave is accrued as it is earned and the accrual is reduced as leave is taken. Each year,
the Foundation calculates the value of the accrued annual leave at the end of the year based on current pay rates.
Funding for payment of accrued annual leave at the end of the year will be taken from future financing sources.
Sick leave and other types of nonvested leave are expensed as taken.
                                                     23
                      The accompanying notes are an integral part of these statements.
    K. Retirement Plan

    The Foundation’s employees participate in the Civil Service Retirement System (CSRS) or the Federal
    Employees Retirement System (FERS). The Foundation makes statutory contributions to the Office of
    Personnel Management for employees enrolled in each plan. The Foundation does not report accumulated
    assets, plan benefits or unfunded liabilities, if any, attributable to its employees. The Office of Personnel
    Management reports such amounts.

    L. Trust Fund

    The Foundation maintains a Trust Fund with the U.S. Treasury in accordance with its gift authority.


Note 3. Fund Balances with Treasury

    A. Fund Balances:
                                                                              FY 2008              FY 2007
                          General Funds                                     $ 31,431,866         $  24,806,561
                          Trust Fund                                              46,633                36,054
                          Total                                            $ 31,478,499          $ 24,842,615

    B. Status of Fund Balance with Treasury:
                                                                               FY 2008               FY 2007

                          Unobligated Balance
                                  Available                                $  3,558,027                  765,950
                                  Unavailable                                 2,708,310                2,478,530
                                  Exempt from apportionment                      41,158                   31,967
                          Obligated balance not yet disbursed                25,171,004               21,566,168
                          Total                                            $ 31,478,499          $    24,842,615


Note 4. Cash and Other Monetary Assets

ADF’s funds held outside the Treasury consist of local currency donations made by African governments and certain
private sector entities for program purposes in each respective country. September comparative balances are
summarized below
                                                                                FY 2008              FY 2007
                             EcoBank Mali                                        1,815,085             1,407,401
                             Zenith Bank Nigeria – Kano                          1,044,143               323,481
                             Barclays Bank of Botswana                           1,020,934             1,143,987
                             Stanbic Bank of Uganda                                 790,488              178,387
                             Cape Verde                                             726,110              539,366
                             EcoBank Guinea                                         588,404              625,571
                             EcoBank Benin                                          580,206              560,803
                             Standard Chartered Ghana                               577,469            1,015,383
                             Banque Commerciale du Rwanda                           572,578                    -
                             EcoBank Senegal                                        220,706              345,592
                             Zenith Bank Nigeria – Kaduna                           143,498                    -
                             First National Bank Swaziland                           88,816              171,552
                             Standard Chartered Zambia                               65,276               60,938
                             Citibank Nigeria                                        43,211               32,758

                          Total Funds Held Outside Treasury                $     8,276,924       $        6,405,219


                                                        24
                         The accompanying notes are an integral part of these statements.
Note 5. Advances

    ADF’s advances as of September 30, 2008 and 2007 are summarized below:
                                                                         FY 2008                          FY2007

                            Grants                                            $     2,086,286        $     1,649,341
                            Travel                                                      4,600                      -

                            Total                                             $     2,090,886        $     1,649,341


Note 6. Property, Plant and Equipment, Net

    Equipment is capitalized at cost if the initial unit acquisition cost is $5,000 or more and service life is two years
    or more. Equipment with an acquisition cost of less than $5,000 or less than two years of life is expensed when
    purchased.
         ADF’s property, plant, and equipment as of September 30, 2008 and 2007

                                                                                  FY 2008                FY 2007

                 Equipment, at cost                                           $     1,343,751        $     1,109,246
                 Accumulated Depreciation                                            (667,129)              (499,170)
                 Equipment, net                                               $       676,622        $       610,076


Note 7. Other Liabilities

    Other liabilities represent amounts accrued for employee payroll and annual leave.
                                                                                   (Current)             (Current)
                                                                                   FY 2008               FY 2007

                            Employees’ accrued salary                         $       152,031        $       145,658
                            Accrued annual leave                                      248,418                256,646
                            Total                                             $       400,449        $       402,304




                                                          25
                          The accompanying notes are an integral part of these statements.
Note 8. Leases
   The space in which the Foundation Headquarters operates is leased by the Foundation through Ten year lease
   until May 31, 2018. The total amount of funding commitment is detailed in Table 1.
   ADF also enters into year-to-year leases in the countries with established Country Representative Offices.


                                           TABLE 1 – ADF Headquarters’
                                      Space Lease – Total Future Payment Due


                   Fiscal Year                        Dates                          Amount

                      Year 1              June 1, 2008 - May 31, 2009                  $698,873
                      Year 2              June 1, 2009 - May 31, 2010                  $716,305
                      Year 3              June 1, 2010 - May 31, 2011                  $734,209
                      Year 4              June 1, 2011 - May 31, 2012                  $752,584
                      Year 5              June 1, 2012 - May 31, 2013                  $771,430
                      Year 6              June 1, 2013 - May 31, 2014                  $806,766
                      Year 7              June 1, 2014 - May 31, 2015                  $826,868
                      Year 8              June 1, 2015 - May 31, 2016                  $847,599
                      Year 9              June 1, 2016 - May 31, 2017                  $868,801
                     Year 10              June 1, 2017 - May 31, 2018                  $890,474

                     TOTAL                                                          $ 7,913,909



Note 9. Correction of Errors
   On the Statement of Changes in Net Position for fiscal year ended September 30, 2008 a correction was made to
   the beginning balances of cumulative results of operations and unexpended appropriations. This correction
   reduced the beginning balance of cumulative results of operations and increased the beginning balance of
   unexpended appropriations by $1,247,505. The overall impact of this correction on net position is zero dollars.
   Since this correction is recorded in FY 2008, so no prior years financial statements were restated.
   The cause of errors is due to incorrect entries in past years on recording of donated fund expenses. In addition to
   the appropriate funds, ADF also has donated funds from other countries. Donated fund expenses should only be
   closed to cumulative result of operations instead of unexpended appropriations. In prior years some transactions
   for donated funds were closed to unexpended appropriation account.
    Management has taken the following step to correct these misclassifications in the future:
   •    Management will perform monthly review of Unexpended Appropriation account (3100) to ensure the
       integrity of trial balance and enter any corrective adjusting entries.




                                                        26
                         The accompanying notes are an integral part of these statements.
Note 10. Reconciliation of Net Cost of Operations to Budget


                              African Development Foundation
               RECONCILIATION OF NET COST OF OPERATIONS TO BUDGET
                     For the Years Ended September 30, 2008 and 2007
                                                                                 FY 2008        FY2007

RESOURCES USED TO FINANCE ACTIVITIES

Budgetary Resources Obligated
  Obligations Incurred                                                        $31,224,438     $29,884,641
  Less: Spending Authority from offsetting collections & recoveries            (2,233,710)     (1,282,953)
  Net Obligations                                                              28,990,728      28,601,688

Other Resources
   Imputed financing from costs absorbed by others                                 231,606       217,316
   Other                                                                           (17,380)       (7,535)
   Net Other Resources Used to Finance Activities                                  214,226       209,781

Total Resources Used to Finance Activities                                      29,204,954     28,811,469

RESOURCES USED TO FINANCE ITEMS NOT PART
  OF THE NET COST OF OPERATIONS

   Change in budgetary resources obligated for goods, services,
      And benefits ordered but not yet provided (Increase)                      (3,357,554)    (1,328,933)
      Other resources or adjustments to net obligated resources
      That do not affect net cost of operations                                     17,380              -
   Resources that finance the acquisition of assets                               (281,706)      (193,203)
   Total resources that do not fund net costs                                   (3,621,880)    (1,522,136)

Total Resources Used to Finance Net Cost of Operations                          25,583,074     27,289,333

COMPONENTS OF THE NET COST OF OPERATIONS THAT WILL NOT
  REQUIRE OR GENERATE RESOURCES IN THE CURRENT PERIOD
  Components Requiring or Generating Resources in Future Periods:
    Increase (decrease) in Accrued Annual Leave Liability                           (8,229)        45,465
    Total components of Net Cost of Operations that will require or
      Generate resources in future periods                                          (8,229)        45,465

COMPONENTS NOT REQUIRING OR GENERATING RESOURCES
  Loss/(gains) on the disposal of assets                                                 -          2,809
  Depreciation and amortization                                                    215,161        234,767
  Others                                                                              (656)      (112,982)
  Total components of Net Cost of Operations that will not require or
     Generate resources                                                            214,505       124,594

   Total components of Net Cost of Operations that will not require or
      Generate resources in the current period                                     206,276       170,059

NET COST OF OPERATIONS                                                        $25,789,350     $27,459,392




                                                         27
                         The accompanying notes are an integral part of these statements.
